Nos. 19-1257 & 19-1258
In the Supreme Court of the United States
__________________
MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
----------------------ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
__________________
On Writs of Certiorari to the United States
Court of Appeals for the Ninth Circuit

__________________

BRIEF OF AMICI CURIAE GOVERNOR DOUGLAS A.
DUCEY, PRESIDENT OF THE ARIZONA STATE
SENATE KAREN FANN, AND SPEAKER OF THE
ARIZONA HOUSE OF REPRESENTATIVES RUSSELL
BOWERS IN SUPPORT OF PETITIONERS

__________________

ANDREW G. PAPPAS
General Counsel
Arizona House of
Representatives
1700 W. Washington Street
Phoenix, AZ 85007
apappas@azleg.gov
(602) 926-5544

DOMINIC E. DRAYE
Counsel of Record
GREENBERG TRAURIG LLP
2101 L Street, N.W.
Washington, DC 20037
drayed@gtlaw.com
(202) 331-3168

(Counsel continued on inside cover)

ANNI L. FOSTER
General Counsel
Office of Governor
Douglas A. Ducey
1700 W. Washington Street
Phoenix, Arizona 85007
afoster@az.gov
(602) 542-1455

GREGREY G. JERNIGAN
General Counsel
Arizona State Senate
1700 W. Washington Street
Phoenix, AZ 85007
gjernigan@azleg.gov
(602) 926-5418

Counsel for Amici Curiae

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF INTEREST. . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I. The Decision Below Created a Results Test
that Makes Electoral Regulation Practically
Impossible . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. Section 2 Requires More than Bare Statistical
Disparities Plus Historical Discrimination . . . . . 3
B. The Ninth Circuit’s Interpretation of Section 2
Creates a One-Way Ratchet that Cripples State
Policymaking . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
C. States Cannot Fulfill Their Work as
Laboratories for Policy Experimentation under
the Ninth Circuit’s Test . . . . . . . . . . . . . . . . . . . . 13
II. The Ninth Circuit’s Approach to Historical
Discrimination and Legislative Intent
Would Convict Every Current Legislature in the
Nation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

ii
TABLE OF AUTHORITIES
CASES
Abbot v. Perez,
138 S. Ct. 2305 (2018) . . . . . . . . . . . . . . . . . . . . . . 17, 19
Ariz. State Legislature v. Ariz. Indep. Redistricting
Comm’n (AIRC),
135 S. Ct. 2652 (2015) . . . . . . . . . . . . . . . . . 3, 10, 13, 14
Burdick v. Takushi,
504 U.S. 428 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
City of Mobile v. Bolden,
446 U.S. 55 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Crawford v. Marion Cty. Election Bd.,
553 U.S. 181 (2008) . . . . . . . . . . . . . . . . . . . . . . . passim
Delgado v. Smith,
861 F.2d 1489 (11th Cir. 1988) . . . . . . . . . . . . . . . . . . . 7
Frank v. Walker,
768 F.3d 744 (7th Cir. 2014) . . . . . . . . . . . . . . . . . . . . 10
Hunt v. Cromartie,
526 U.S. 541 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
League of Women Voters of N.C. v. North Carolina,
769 F.3d 224 (4th Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 4
Lee v. Va. State Bd. of Elections,
843 F.3d 592 (4th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . 6
McDonald v. Board of Election,
394 U.S. 802 (1969) . . . . . . . . . . . . . . . . . . . . . . . . . 4, 12

iii
Munro v. Socialist Workers Party,
479 U.S. 189 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
New State Ice Co. v. Liebmann,
285 U.S. 262 (1932) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Nw. Austin Mun. Util. Dist. No. One v. Holder,
557 U.S. 193 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Ohio Democratic Party v. Husted,
834 F.3d 620 (6th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 11
Pac. Gas & Elec. Co. v. State Energy Res.
Conservation & Dev. Comm’n,
461 U.S. 190 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Prejean v. Foster,
227 F.3d 504 (5th Cir. 2000) . . . . . . . . . . . . . . . . . . . . 16
Pullman-Standard v. Swint,
456 U.S. 273 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Rucho v. Common Cause,
139 S. Ct. 2484 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . 23
Shelby County v. Holder,
570 U.S. 529 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
STATUTES
52 U.S.C. § 10301 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
52 U.S.C. § 10301(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5
52 U.S.C. § 10301(b) . . . . . . . . . . . . . . . . . . . . . . . . . 5, 8, 10
Ariz. Rev. Stat. § 16-411. . . . . . . . . . . . . . . . . . . . . . . . . . 13

iv
OTHER AUTHORITIES
Senate Bill 1412 (2011) . . . . . . . . . . . . . . . . . . . . . . . . 17, 18
H.B. 2023 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
H.B. 2305 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17, 18

1
STATEMENT OF INTEREST1
Amici Curiae are Arizona lawmakers whose integrity
the en banc Ninth Circuit impugned and whose authority
that court tried to displace.
Douglas A. Ducey is the Governor of the State of
Arizona, Karen Fann is the President of the Arizona State
Senate, and Russell Bowers is the Speaker of the Arizona
House of Representatives. All three held office in 2016,
when Arizona adopted House Bill 2023, a ban on ballot
harvesting, and all three supported that measure. Speaker
Bowers and President Fann voted for the bill; Governor
Ducey signed it into law. Their mutual objective was to
guarantee the integrity of the ballot while maintaining easy
access to early voting. And they succeeded. HB 2023 is a
commonsense—and commonplace—law that prevents
fraud by limiting who can handle a voter’s early ballot, but
nonetheless allows relatives, caregivers, and others to help
voters in returning their ballots. HB 2023 protects the
right to vote; it does not diminish that right.
None of the Amici were in public office decades earlier,
when Arizona joined the overwhelming majority of States
in adopting precinct-based voting for in-person voters on
election day. But as state officers, Amici have an interest
in defending Arizona’s laws against an activist attack.

1

Pursuant to Supreme Court Rule 37.6, Amici Curiae state that no
counsel for any party authored this brief in whole or in part and that no
entity or person, aside from Amici made any monetary contribution
toward the preparation or submission of this brief. Pursuant to
Supreme Court Rule 37.3, counsel of record for all parties have
consented to this filing.

2
SUMMARY OF ARGUMENT
The en banc Ninth Circuit disregarded the text of the
Voting Rights Act to create a new policy outlawing
inconveniences associated with a State’s voting process if a
court identifies: (1) any statistical or even anecdotal
correlation with race, and (2) any evidence of historical
discrimination, even occurring before statehood. That is
not the law. This Court has recognized in the related
context of Fourteenth Amendment voting claims that “the
usual burdens of voting” do not impair the right to vote.
Crawford v. Marion Cty. Election Bd., 553 U.S. 181, 198
(2008) (Stevens, J., op.). Section 2 likewise focuses on “the
right . . . to vote” and protects minority voters’ ability “to
participate in the political process and to elect
representatives of their choice.” 52 U.S.C. § 10301. The
ordinary burdens of voting do not, by definition, threaten
voting rights.
For state lawmakers like Amici, the Ninth Circuit’s
policy amounts to a policymaking straitjacket. While other
circuits allow States to try different policies—sometimes
relaxing voting procedures, sometimes tightening
them—the Ninth Circuit now precludes States from
changing policy direction if doing so would produce any
statistical correlation with race. Yet Section 2 addresses
vote denial or abridgement “on account of race.” 52 U.S.C.
§ 10301(a). Section 2 does not forbid other, race-neutral
policy motives, including protecting Arizona’s electoral
process for all voters. This Court should restore the States
to their constitutional role as “laboratories for devising
solutions to difficult legal problems.”
Ariz. State
Legislature v. Ariz. Indep. Redistricting Comm’n (AIRC),
135 S. Ct. 2652, 2673 (2015) (quotation omitted).

3
Finally, the Ninth Circuit’s approach to discriminatory
intent would ensnare every State in the Union. That
approach began by faulting Arizona for historical instances
of discrimination dating back to the Treaty of Guadalupe
Hidalgo, 64 years before Arizona became a State. JA
626–27. Regarding more recent events, the Ninth Circuit
impugned Arizona’s entire legislature based on the theory
that dozens of elected officials served as a “cat’s paw” for
one bad actor. JA 677–78, 680. This demeaning and
implausible conclusion contradicted factual findings in the
district court and further paralyzes state legislatures’
ability to enact electoral regulations by imputing to the
entire body the improper motives of a single member.
ARGUMENT
I. The Decision Below Created a Results Test that
Makes Electoral Regulation Practically Impossible.
The Ninth Circuit created a test that every jurisdiction
would fail. It finds a violation of the Voting Rights Act
based on either a bare statistical disparity (out-of-precinct
voting) or anecdotal evidence (ballot harvesting), combined
with historical discrimination. This approach departs from
the Voting Rights Act and prevents the States from
experimenting with policy solutions.
For state
policymakers like Amici, these effects are devastating. The
Court should apply the statute as written and free States to
fulfill their roles as laboratories of democracy.
A. Section 2 Requires More than Bare Statistical
Disparities Plus Historical Discrimination.
The circuit courts have struggled to identify a test for
vote-denial cases under Section 2. The leading candidate in
many circuits bears no relation to the text of the statute.

4
See, e.g., League of Women Voters of N.C. v. North
Carolina, 769 F.3d 224, 240 (4th Cir. 2014). The Ninth
Circuit’s version goes even further afield with its hair
trigger that prevents virtually all regulation. This Court,
in its first vote-denial case, should announce a test that
incorporates each of the elements in the statute itself. At
a minimum, that would include the following:
1. the contested regulation must affect “the right to
vote” and not just one particular method of voting;
2. “denial or abridgement” requires something more
than the “usual burdens of voting,” Crawford, 553
U.S. at 198; and
3. minority voters’ “opportunity . . . to participate in
the political process and to elect representatives of
their choice,” “based on the totality of
circumstances,” requires evidence that the
contested provision actually affects electoral
outcomes.
The current tests for vote denial under Section 2 fixate on
historical discrimination and give courts wide latitude to
impose their policy preferences. This Court should
announce a test that follows the language of the statute.
1. The Voting Rights Act protects “the right to vote,”
not the right to vote however one pleases. That distinction
is not new. It was the basis for this Court’s holding in
McDonald v. Board of Election, 394 U.S. 802 (1969).
Applying the Fourteenth Amendment, the McDonald
Court distinguished between “the right to vote” and “a
claimed right to receive absentee ballots.” Id. at 807.

5
Textually, the Voting Rights Act reflects the same basic
insight. Its first subsection speaks in terms of the “right to
vote.” The second subsection then defines violations in
terms of “the totality of circumstances” and minority
voters’ ability “to participate in the political process and to
elect representatives of their choice.” 52 U.S.C. § 10301(b).
This holistic standard requires courts to consider the
cumulative effect of voting regulations, which necessarily
encompasses both restrictive and permissive features of a
State’s voting system. JA 616 (O’Scannlain, J., dissenting);
JA 705 (Bybee, J., dissenting).
Here, the record shows that Arizona provides a “flexible
mixture” of opportunities to vote—including in-person
voting on election day, early in-person voting, voting by
mail, and in-person drop-off of early ballots. JA 259. For
in-person voters in precinct-based counties, the district
court found after a 10-day trial that locating the correct
precinct is easy. JA 303. And both the district court and
the Ninth Circuit panel correctly focused on the statutorily
protected “right to vote.” JA 319–21; JA 400–04. The en
banc court, in contrast, narrowed its gaze to two voting
practices that Arizona law forbids—voting in the wrong
precinct and giving a ballot to unauthorized ballot
harvesters. As a matter of text and logic, those two
practices are not what Section 2 protects. Any standard
that faithfully applies the statute must focus on “the right
to vote.”
2. Congress did not pass the Voting Rights Act to
combat inconvenience. As its text says, the Act addresses
a “denial or abridgement of the right . . . to vote.” 52 U.S.C.
§ 10301(a). Any orderly electoral system necessarily
entails a degree of inconvenience. Fortunately, the

6
mechanism for separating denials and abridgements from
mere inconveniences is already in place. The safe harbor
announced in Crawford for “the usual burdens of voting,”
553 U.S. at 198, logically applies to Section 2 as well.
In vindicating the right to vote under the Fourteenth
Amendment, this Court held that a State may require voter
identification because doing so “does not qualify as a
substantial burden on the right to vote, or even represent
a significant increase over the usual burdens of voting.”
Ibid. (emphasis added). The language of a “substantial
burden” is specific to the Fourteenth Amendment. See
Burdick v. Takushi, 504 U.S. 428, 444 (1992). The lesser
standard—“usual burdens of voting”—applies to a species
of regulation that cannot burden the right to vote in a
legally cognizable way. After all, what is “usual” cannot be
a denial or abridgement.
The circuit courts have already recognized the logic of
extending Crawford’s safe harbor to Section 2. The Fourth
Circuit, for example, applied Crawford to a Section 2 votedenial claim, noting that the “‘usual burdens of voting’” do
not amount to a denial or abridgement of the right to vote.
Lee v. Va. State Bd. of Elections, 843 F.3d 592, 600 (4th Cir.
2016) (quoting Crawford). Judge O’Scannlain, dissenting
below, applied the same logic, criticizing the en banc
majority for failing to explain “how or why the burden of
voting in one’s assigned precinct is severe or beyond that of
the burdens traditionally associated with voting.” JA 704.
The en banc majority was silent on how voting in the
correct precinct or submitting a ballot without the help of
unauthorized third parties compares to the usual burdens
of voting. The district court, however, had already found
that neither contested regulation represents more than the

7
“usual” and “ordinary burdens traditionally associated with
voting.” JA 279 (ballot harvesting), JA 305 (out-ofprecinct). It is impossible to characterize that finding as
clear error, and the Ninth Circuit did not reach
Respondents’ Fourteenth Amendment claims. JA 584. But
while this maneuver avoids the impossible conclusion that
the district court clearly erred, it leaves in place the district
court’s factual finding. All that remains is the legal
question whether Crawford’s logic applies to Section 2 as
well.
The scope of “usual burdens” should take guidance from
practices in other States to create a safe harbor for
policymakers. Both at the time of the Voting Rights Act’s
adoption and continuing to the present, most States require
voters to cast ballots in their correct precinct. JA 729–30
& n.5 (Bybee, J., dissenting). Numerous States limit ballot
harvesting, JA 739–42 (Bybee, J., dissenting), and all 50 of
them include some regulation for the handling of absentee
ballots, JA 768-830 (Bybee, J., dissenting). Some States
require a justification for obtaining a mail-in ballot in the
first place. All of these regulatory programs are “usual,”
and a State must be free to choose any of them—whether
that choice represents an easing or tightening of rules for
that particular jurisdiction. See Part I.B infra.
The Voting Rights Act does not purport to eliminate
every burden around voting, however minor. “The Voting
Rights Act of 1965 was enacted to remedy the systematic
exclusion of blacks from the polls by the use of poll taxes,
literacy tests, and similar devices.” Delgado v. Smith, 861
F.2d 1489, 1492 (11th Cir. 1988). These wicked devices
leveraged failures by the States (e.g., to educate minorities
or permit them to earn a living) in order to preclude high

8
percentages of racial minorities from voting. They also
often included “grandfather clauses” and “good character”
tests to extend the franchise to white citizens who would
otherwise fail the test. See Nw. Austin Mun. Util. Dist.
No. One v. Holder, 557 U.S. 193, 220 (2009) (Thomas, J.,
concurring in part and dissenting in part). For a citizen
whom the State has purposefully deprived of economic and
educational opportunities, a poll tax or literacy test is a
significant or even insuperable barrier to the franchise.
Traditional burdens like voting in one’s own precinct or
returning one’s no-justification-required early ballot during
a month-long window, on the other hand, are unremarkable
and represent features of orderly elections. Under
Crawford, these requirements fall comfortably within the
safe harbor for the “usual burdens of voting” and therefore
do not amount to a denial or abridgement.
3. The en banc court eschewed Judge Ikuta’s insistence
on evidence “show[ing] that the state election practice has
some material effect on elections and their outcomes.”
JA 400. Instead, it settled for anecdotal evidence that
minority voters were “more likely” to give their ballots to
third-party ballot collectors than were white voters, JA
597–98, and that minority voters were one half of one
percentage point more likely to vote in the wrong precinct,
JA 617. The statute favors Judge Ikuta’s approach. It
speaks in terms of minority voters’ ability to “participate in
the political process and to elect representatives of their
choice.” 52 U.S.C. § 10301(b) (emphasis added). Those are
the “results” that a “results test” must require.
Respondents’ evidence of disparate utilization does not
establish the disenfranchisement that Section 2 requires.
On ballot harvesting, the district court found that “prior to

9
HB 2023’s enactment minorities generically were more
likely than non-minorities to return their early ballots with
the assistance of third parties.” 329 F. Supp. 3d at 870.
This fact was insufficient in the opinion of the district court
and the Ninth Circuit panel to establish a violation of
Section 2. Applying the statutory language, those courts
insisted on “a meaningful inequality in the electoral
opportunities of minorities as compared to non-minorities.”
Id. at 871; see also 904 F.3d at 713. The en banc Ninth
Circuit reversed, rejecting Section 2’s focus on electoral
outcomes to focus instead on the mere fact that racial
groups use different voting procedures to different
degrees. JA 659–62. In changing the statutory definition
of a violation—which is the whole purpose of Section 2’s
second paragraph—the en banc court rewrote half of
Section 2.
Regarding out-of-precinct voting, the district court
found that 99% of minority voters and 99.5% of white voters
cast their ballots in the correct precinct. JA 333. Applying
the statutory command to consider the “totality of
circumstances,” the district court concluded that the
minimal statistical disparity in out-of-precinct voting was
not a violation of Section 2. JA 334–37. The en banc Ninth
Circuit, however, never mentioned the actual percentages.
Instead, it produced a new statistic to suit its desired
outcome, dividing the percentages to find that minority
voters cast out-of-precinct ballots at a “ratio of two to one.”
JA 618. Of course, the same “ratio of two to one” would
exist if 99.999998% of minority voters and 99.999999% of
white voters voted in the correct precinct. And in either
case, the data reveals near parity in voters’ ability to
comply with the regulations at issue. The Seventh Circuit
addressed exactly this “misuse of data” in an election case,

10
concluding that “[t]hat’s why we don’t divide percentages.”
Frank v. Walker, 768 F.3d 744, 752 n.3 (7th Cir. 2014).
These examples highlight Congress’ wisdom in defining
a Section 2 violation to encompass only “political processes”
that “are not equally open to participation by members of
a class of citizens protected by subsection (a) in that its
members have less opportunity than other members of the
electorate to participate in the political process and to elect
representatives of their choice.” 52 U.S.C. § 10301(b). This
definition might be a mouthful, but its unmistakable focus
is on elections as a whole. The Ninth Circuit erred in
reducing it to a dubious calculation of relative impact,
detached from the broader fact that voters of all races have
little trouble complying with the law.
* * *
Whatever test this Court announces should rely on the
language of Section 2. The current test employed by a
number of circuits overlooks the statutory features
discussed here; the Ninth Circuit’s test is even more
detached. It magnifies even the slightest discrepancy in
methods of voting to create a violation, whereas the statute
requires something like Judge Ikuta’s insistence on a
“material effect on elections and their outcomes.” JA 400.
At the very least, a safe harbor based on Crawford’s “usual
burdens of voting” will allow States to continue regulating
elections in search of the best “solutions to difficult legal
problems.” AIRC, 135 S. Ct. 2673.

11
B. The Ninth Circuit’s Interpretation of Section 2
Creates a One-Way Ratchet that Cripples State
Policymaking.
Because the Ninth Circuit requires only a (vanishingly
small) burden to find a Section 2 violation, its results test
amounts to a ban on any regulation that tightens election
security.
This one-way ratchet will chill policy
experimentation as lawmakers realize that any step toward
liberalization will be impossible to undo.
States experiment with various electoral regulations,
knowing that future legislators can reverse course if the
experiment proves less than successful or opens the door to
fraud. Until now, courts have not viewed this policy
dynamism with suspicion. In Ohio, for example, the
legislature initially allowed 35 days for early voting,
including a six-day “golden week” when individuals could
register and vote on the same day. Ohio Democratic Party
v. Husted, 834 F.3d 620, 623 (6th Cir. 2016). Four
legislative terms later, policymakers eliminated the golden
week to allow just 29 days for early voting. Id. at 624. This
slight tightening of electoral regulations impacted African
American voters more than other groups. Id. at 625.
Nevertheless, the Sixth Circuit declined to construe the
Voting Rights Act to “create a ‘one-way ratchet’ that would
discourage states from ever increasing early voting
opportunities, lest they be prohibited by federal courts
from later modifying their election procedures in response
to changing circumstances.” Id. at 623.
In the Ninth Circuit, however, Ohio’s reconsideration of
the golden week would violate Section 2, because African
American voters were more likely to employ same-day
registration and voting. Id. at 628. Add to that disparity

12
the fact that Ohio’s history doubtless includes racially
unjust chapters, see Part II infra, and the Ninth Circuit
would have everything it needs to find a Section 2 violation.
But if the Ninth Circuit’s approach were the rule, Ohio
likely would never have created the golden week in the first
place—or experimented with early voting at all. The
unintended consequence of forbidding any effort to tighten
regulations is that States will not relax those regulations.
If legislators face a one-way ratchet, the safest course is not
to turn it.
An additional consequence is that one legislature can tie
the hands of its successors. Lawmakers who might
otherwise hesitate to enact policies that would be
vulnerable to future repeal or revision—i.e., those with
limited public support or known downsides—would have
every incentive to charge ahead, knowing that course
correction is impossible, even as legislative majorities
change.
The ability to change laws in response to changing
circumstances and priorities is, of course, central to the
work of every legislature in the country. As Chief Justice
Warren observed five decades ago, “a legislature
traditionally has been allowed to take reform one step at a
time, addressing itself to the phase of the problem which
seems most acute to the legislative mind.” McDonald, 394
U.S. at 809 (quotation omitted). Amici know from
experience that, with each policy experiment, lawmakers
discover new “phase[s] of the problem.” Some of those
lessons require returning to former policies. The Ninth
Circuit, however, has replaced the process of trial and error
with an allowance for trials but no opportunity to admit
even partial error.

13
The Ninth Circuit’s hair-trigger test for racial
discrimination under Section 2 will subvert the States’
legislative process. It allows one legislature to bind the
hands of future policymakers and discourages policy
experimentation. Far from identifying bad legislative
actors, the Ninth Circuit’s version of the Voting Rights Act
discourages lawmakers from doing what they should.
C. States Cannot Fulfill Their Work as
Laboratories for Policy Experimentation under
the Ninth Circuit’s Test.
State policymakers like Amici lead “laboratories for
devising solutions to difficult legal problems.” AIRC, 135
S. Ct. at 2673 (quotation omitted). In the field of election
law, the Ninth Circuit would make that work impossible.
Both statutes at issue in this case respond to important
concerns around the administration of elections. Other
States may not respond in the same way, but “a single
courageous State may, if its citizens choose, serve as a
laboratory.” New State Ice Co. v. Liebmann, 285 U.S. 262,
311 (1932) (Brandeis, J., dissenting).
Innovative States like Arizona are operating
laboratories within the laboratory. For example, Arizona
law allows counties to choose whether to use a traditional
precinct-based model or a vote-center model, in which a
registered voter can vote at any polling place in the county.
Ariz. Rev. Stat. § 16-411. For counties that choose the
precinct-based system, out-of-precinct voting is undesirable
for both practical and principled reasons. For starters,
voting in the incorrect precinct undermines the democratic
process by reducing participation in local elections. A voter
who arrives at the wrong precinct but still within his
congressional district, for example, may be able to vote in

14
statewide races and the congressional race but not in
contests for county offices or the state legislature. And if,
as Respondents hypothesize, out-of-precinct voting is
slightly more common among minority voters, then the
resulting exclusion from local races will disproportionately
impact precisely the voters Respondents claim to
represent. In Arizona’s judgment, the better policy is to
encourage in-precinct voting by disallowing out-of-precinct
ballots.
The Ninth Circuit suggested several different (and
occasionally confusing) policy options, including “counting
or partially counting” out-of-precinct ballots. JA 584.
“Partially counting” those ballots by identifying races for
which the voter was entitled to vote might be a creative
approach, but it is not required by Section 2. It belongs
instead to the policy realm, where Amici and their
counterparts in other States have worked for years to
develop “solutions to difficult legal problems.” AIRC, 135
S. Ct. at 2673.
On the other hand, “counting” out-of-precinct ballots
implies that voters would cast ballots for offices for which
they are not entitled to vote. JA 584, JA 707 n.7
(O’Scannlain, J., dissenting) (noting the absurdity of
“counting or partially counting”). If election integrity
means anything, it must prevent voters from choosing
other people’s representatives. Still, even the Ninth
Circuit’s ill-advised policy suggestion illustrates a useful
point: flaws that might slip past the judiciary are more
likely to be purged in the crucible of democratic
policymaking.
The stifling effect of the Ninth Circuit’s holding for
state policymakers is difficult to overstate. If that decision

15
stands, any change in election laws is certain to bring
litigation and impractical “solutions” imposed by a judiciary
with no special expertise in administering elections. That
is not the vision embodied in either America’s federal
structure or the Voting Rights Act.
II. The Ninth Circuit’s Approach to Historical
Discrimination and Legislative Intent Would
Convict Every Current Legislature in the Nation.
Amici know from experience that divining legislative
intent is nearly impossible. What drives one legislator is
irrelevant to another and a drawback in the eyes of a third.
Yet all three might eventually support the same bill.
Compounding this divergence in motives are the
incomplete records of legislative proceedings. Floor and
committee transcripts may reveal areas of contention or
uncertainty, but they cannot document each legislator’s
various motives or their relative importance.
If “legislative intent” is discoverable at all, the record in
this case falls far short of establishing discriminatory intent
behind HB 2023. The district court correctly rejected that
contention, and the en banc Ninth Circuit had no basis for
finding clear error. For the lawmakers who supported this
legislation, erasing the Ninth Circuit’s slander is of utmost
importance.
1. Legislative intent entered this case through two
theories: the “intent test” for Section 2, and the Fifteenth
Amendment. JA 584. The district court rejected
Respondents’ theory of invidious legislative intent. JA
357–58. It concluded that the legislature acted on “a
sincere belief that mail-in ballots lacked adequate
prophylactic safeguards as compared to in-person voting.”

16
JA 357. While some legislators “also harbored partisan
motives . . . in the end, the legislature acted in spite of
opponents’ concerns that the law would prohibit an
effective [get-out-the-vote] strategy in low-efficacy
minority communities, not because it intended to suppress
those votes.” JA 357–58 (emphasis added). As a result, the
district court found “that H.B. 2023 was not enacted with a
racially discriminatory purpose.” JA 350.
2. “Legislative motivation or intent is a paradigmatic
fact question.” Prejean v. Foster, 227 F.3d 504, 509 (5th
Cir. 2000) (citing Hunt v. Cromartie, 526 U.S. 541, 549
(1999)); Pullman-Standard v. Swint, 456 U.S. 273, 287–288
(1982) (“intent to discriminate on account of race . . . is a
pure question of fact”).
Here, the district court found after a 10-day bench trial
that HB 2023 was enacted without discriminatory intent.
The court heard testimony of “current and former
lawmakers, elections officials, and law enforcement
officials,” including both supporters and opponents of the
law.
JA 258.
Among those who testified was
Representative Charlene Fernandez, the current
Democratic Minority Leader of the Arizona House of
Representatives. Rep. Fernandez opposed HB 2023 in
2016. But she testified at trial that she had “no reason to
believe that H.B. 2023 was enacted with the intent to
suppress Hispanic voting.” JA 352. It was not, and the
district court agreed. JA 350.
3. A bare majority of the en banc Ninth Circuit
upended that finding based on “Arizona’s long history of
race-based voting discrimination,” prior legislatures’ efforts
to limit third-party ballot collection, and a novel “cat’s paw”
theory under which the court imputed one senator’s

17
supposedly race-based motives to all of his colleagues. JA
677–78, 680.2 By both measures, the Ninth Circuit wrongly
attributed to Amici and their many colleagues views and
intentions that they do not hold.
a. The “long history” chronicled by the Ninth Circuit
stretches back 172 years—that is, 64 years before Arizona
entered the Union. Even assuming that historical account
is accurate, the Ninth Circuit erred in faulting
contemporary legislators based on distant history. See
Shelby County v. Holder, 570 U.S. 529, 553 (2013)
(rejecting the coverage formula in Section 4 of the Voting
Rights Act because it rested on “decades-old data relevant
to decades-old problems”). Every State has historical
failures in racial equality. But neither the Fifteenth
Amendment nor Section 2 disables current legislatures
because their predecessors acted badly. Just as one
legislature’s laws cannot bind another, so future lawmakers
cannot be bound to the moral defects of their forbearers.
As this Court recently reaffirmed, “[p]ast discrimination
cannot, in the manner of original sin, condemn
governmental action that is not itself unlawful.” Abbot v.
Perez, 138 S. Ct. 2305, 2324 (2018) (quoting City of Mobile
v. Bolden, 446 U.S. 55, 74 (1980)).
b. The Ninth Circuit’s reliance on prior legislatures’
efforts to limit third-party ballot collection was misplaced
for similar reasons. The district court correctly discounted
those earlier efforts—Senate Bill 1412 (2011) and HB 2305
(2013)—because “they involve[d] different bills passed
during different legislative sessions by a substantially

2

Judge Watford did not join the “intent test” portion of the en banc
panel’s opinion. JA 692.

18
different composition of legislators.” JA 354-55. Yet the
en banc majority scoured those earlier “efforts to outlaw
third-party ballot collection” for some evidence of sinister
intent. JA 671.
Regarding SB 1412, for example, the court misleadingly
quoted Arizona’s former elections director, Amy Bjelland
Chan, as “admit[ting] that the provision was ‘targeted at
voting practices in predominantly Hispanic areas.’” JA 603.
But “[i]n context,” as the district court earlier explained,
the report “describes the ‘practice’ targeted by S.B. 1412
not as ballot collection, generally, but as voter fraud
perpetrated through ballot collection, which Bjelland Chan
believed was more prevalent along the border because of
perceived ‘corruption in the government and the voting
process in Mexico,’ and the fact that ‘people who live close
to the border are more impacted by that.’” Dist. Ct. Dkt.
204 at 13.
As for HB 2305, the Ninth Circuit darkly noted that the
bill “was passed along nearly straight party lines in the
waning hours of the legislative session.” JA 604. Indeed,
HB 2305 was the fourteenth of 34 bills voted on during a 14hour legislative day, and it was one of several that day that
broke along partisan lines. That is not suspicious or
unusual—it describes many bills passed at the end of every
legislative session. The court also noted that the legislature
subsequently repealed the bill rather than face a citizen
referendum. JA 605. But that says nothing about the
intent of the legislators who voted for the bill itself.
Even the en banc majority could not go so far as to
conclude that either SB 1412 or HB 2305 was enacted with
discriminatory intent. But even if it had, “this is [not] a
case in which a law originally enacted with discriminatory

19
intent [was] later reenacted by a different legislature,” so
“what matters . . . is the intent of the” legislature that
enacted HB 2023. Abbott, 138 S. Ct. at 2325.
b. As for HB 2023, the Ninth Circuit adopted a “cat’s
paw” theory of legislative intent that is unsupported in law
and unconnected to the realities of policymaking. The
en banc court purported to “accept the district court’s
conclusion that some members of the legislature who voted
for H.B. 2023 had a sincere, though mistaken, non-racebased belief that there had been fraud in third-party ballot
collection, and that the problem needed to be addressed.”
JA 677; compare JA 357. But because that “sincere belief”
was the product of a single legislator’s “false allegations”
and a “racially-tinged” video, the Ninth Circuit tortuously
reasoned, “a discriminatory purpose” could be imputed to
the 50 other legislators who “did not themselves have” a
malign purpose, but were nonetheless duped into voting for
the bill. JA 677.
No other court has adopted this demeaning “cat’s paw”
theory of legislative intent, and for good reason. It turns
the presumption of legislative good faith on its head and is
irreconcilable with this Court’s commonsense observation
that “[w]hat motivates one legislator to vote for a statute is
not necessarily what motivates scores of others to enact it.”
Pac. Gas & Elec. Co. v. State Energy Res. Conservation &
Dev. Comm’n, 461 U.S. 190, 217 (1983).
Indeed, the Ninth Circuit’s “cat’s paw” hypothesis bears
no resemblance to the realities of policymaking. The
Arizona Legislature consists of two chambers with 90
members—60 representatives and 30 senators. Typically,
after a member introduces legislation, one or more
committees hears the bill, including public testimony,

20
before the full chamber votes on it. If a majority of the first
chamber approves the bill, then the process repeats itself
in the second chamber. The bill may be amended several
times along the way. And if it clears both chambers, then
it must be signed by the governor before it becomes law.
The process is cumbersome by design. And the notion that
it could be controlled by a single legislator is farcical. 3
Even if this level of manipulation were possible,
adopting the Ninth Circuit’s approach would cast suspicion
on nearly all election-related policymaking. If a single
legislator’s undisclosed racist motives can be attributed to
all his colleagues, then any elections bill he advocates or
votes for may violate Section 2’s intent test or the
Fifteenth Amendment. No legislature can be put to the
task of smoking out all its members’ secret intentions
before it can regulate elections.
4. The Ninth Circuit’s conclusion regarding legislative
intent rests on an additional error of fact and law. That
court insisted repeatedly that “[t]here is no evidence of any
fraud in the long history of third-party ballot collection in
Arizona.” JA 601; see also JA 689 (“there is a long history
of third-party ballot collection with no evidence, ever, of
any fraud”).
That is false. Jim Drake, a former Assistant Secretary
of State, testified at trial about his investigation of an
individual who collected other people’s ballots, opened
them, and then disqualified them by “overvot[ing] them if
things weren’t going the right way.” Dist. Ct. Dkt. 400 at
3

Ironically, the legislator whom the Ninth Circuit promoted to
Svengali-like status was expelled from the Arizona House of
Representatives in 2018 by a bipartisan supermajority of his colleagues.

21
213. While it was considering HB 2023, the House
Elections Committee heard testimony from numerous
witnesses, including “Michael Johnson, an African
American who had served on the Phoenix City Council,
[who] strongly favored H.B. 2023 and expressed concern
about stories of ballot collectors misrepresenting
themselves as election workers.” JA 352; see also JA 412
(citing Sen. Steve Smith’s testimony “that ballot fraud is
‘certainly happening,’” and Sen. Sylvia Allen’s floor speech
“express[ing] concern that ‘we do not know what happens
between the time the ballots are collected and when they’re
finally delivered.’”).
The Legislature also considered the Carter-Baker
Report, which instructed that States “should reduce the
risks of fraud and abuse in absentee voting by prohibiting
‘third-party’ organizations, candidates, and political party
activists from handling absentee ballots.” JA 669. Other
jurisdictions wrestled with the dangers of ballot harvesting
in the years preceding HB 2023’s enactment. And recent
history provides an additional example in North Carolina’s
2018 election. See JA 745.
Moreover, as a matter of law, the Ninth Circuit erred in
concluding that “protect[ion] against potential voter
fraud . . . is not necessary, or even appropriate.” JA 689.
That conclusion directly contravenes this Court’s decision
in Crawford, which reiterated that States can enact
legislation to prevent election fraud even before it occurs.
553 U.S. at 196 (“While the most effective method of
preventing election fraud may well be debatable, the
propriety of doing so is perfectly clear.”). Unlike here, the
Indiana legislature in Crawford had no evidence of the
particular misconduct that it legislated to prevent. Id. at

22
194. The same was true when Washington’s lawmakers, in
order to avoid voter confusion, required minor-party
candidates to demonstrate support to qualify for the ballot.
Munro v. Socialist Workers Party, 479 U.S. 189, 195
(1986). Here, in contrast, Arizona lawmakers had evidence
of the fraud they sought to prevent. But even if they had
not, their foresight would not have violated Section 2 or the
Fifteenth Amendment.
5. The en banc majority found further proof of the
Legislature’s supposedly illicit motive in the district court’s
finding “that the legislature ‘was aware’ of the impact of
H.B. 2023 on what [the district] court called ‘low-efficacy
minority communities.’” JA 679. But the Ninth Circuit
ignored the district court’s finding that “the legislature
enacted H.B. 2023 in spite of its impact on minority [getout-the-vote] efforts, not because of that impact.” JA 356
(emphasis added). True, the district court found that
“some individual legislators and proponents were
motivated in part by partisan interests.” Ibid. But the
court determined that “partisan motives did not permeate
the entire legislative process.” Ibid. “Instead, many
proponents acted to advance facially important interests in
bringing early mail ballot security in line with in-person
voting security[.]” Ibid.
Again, Crawford is instructive. The voter-identification
law there was uniformly supported by Republican
legislators and opposed by Democratic legislators, and so
“[i]t is fair to infer that partisan considerations may have
played a significant role.” Crawford, 553 U.S. at 203. But
where, as here, “a nondiscriminatory law is supported by
valid neutral justifications, those justifications should not
be disregarded simply because partisan interests may have

23
provided one motivation for the votes of individual
legislators.” Id. at 204. In any event, partisan interests are
not themselves illicit, whether in regulating elections or
redistricting, both of which are constitutionally committed
to the States. See Rucho v. Common Cause, 139 S. Ct.
2484, 2497 (2019) (“To hold that legislators cannot take
partisan interests into account when drawing district lines
would essentially countermand the Framers’ decision to
entrust districting to political entities.”).
CONCLUSION
The Court should reverse the decision below.
Respectfully submitted.
ANDREW G. PAPPAS
General Counsel
Arizona House of
Representatives
1700 W. Washington Street
Phoenix, AZ 85007
apappas@azleg.gov
(602) 926-5544

DOMINIC E. DRAYE
Counsel of Record
GREENBERG TRAURIG, LLP
2101 L Street N.W.
Washington, DC 20037
drayed@gtlaw.com
(202) 331-3168

ANNI L. FOSTER
General Counsel
Office of Governor
Douglas A. Ducey
1700 W. Washington Street
Phoenix, Arizona 85007
afoster@az.gov
(602) 542-1455

GREGREY G. JERNIGAN
General Counsel
Arizona State Senate
1700 W. Washington Street
Phoenix, AZ 85007
gjernigan@azleg.gov
(602) 926-5418

Counsel for Amici Curiae
DECEMBER 7, 2020

